          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

Follow-up Audit on Stockpile
Surveillance Testing




DOE/IG-0744                         October 2006
                                 Department of Energy
                                     Washington, DC 20585

                                      October 30, 2006

MEMORANDUM FOR

FROM:
                           Inspector General

SLJBJECT:                  IIVFCRMATION: ti,udit Reporl on the "Follow-up Audii of
                           Stockpile Surveillance Testing"

BACKGROUND
--

Annually, the President of the I?;ii:ed Siates issues :he Nuclear Weapons SLockpile Plan.
As par! of the deveiopment cf :he Plan, the. Scci.ctt;;.ry:,?'Eiiei.g\l I S required to canfirm
that the U.S. nuclear weapons stockpile is safc. secure anti reliable. In suppol-t of this
etfort, the Department's National Nuclear Sccuri ty i\dr,~inis!l.;trion(NNSA), as part of i 1s
Stockpile Stewardship Program, uses statistics! samp1ir.g techniques, variouz tests, >long
~ . i ! t computer
          l         simulations, to assess weapon reliability. "Surveil!ance Testing," duriilg
~ i h i c h:he performance and reiiability of randomly selected weapons and components is
ev,:lluated, 1s one of the key components of thls effort. These tests follow an established
schedule Any delay i n thc testing reglme deprives decision-makers of data on [he
ci~ncntstatus of the stockpile.

I n 2001, the Office of Inspector General leportetl that the Department was behind
schedule in conducting severa! of the stockpile surveillance tests. 'The Department \/;/as
unable to conduct timely tests, in part, because i: did not have up-to-date safety studies i r ~
place. These studies are a pre-requisite for surveillance activ~tieson each weapons
system; they establish the basis for assuring worker and environment safety during the
disassembly, inspection, reassembly and other test protocols. In response to our 2001
report, the Department committed to taking Eteps to retlirn stockpile surveillance testing
to its planned schedule. This included: ( I ) developing a management plan with goals
and milestones to address the test backlog; and, (2) expediting the renewal of safety
studies to assure testing would be completed as scheduled.

The objective of this follow-up aud~twas to determine whether the NNSA had r.esolved
the weapons testing backlog.

RESULTS OF ALDIT

Although it made some progress, the Department had not eliminated the weapons
surveillance testing backlog. The audit disclosed that significant backlogs existed in each
of the three types of tests conducted in the surveillance program--laboratory tests, flight
tests and component tests. As of September 30, 2005:

       Laboratory tests for seven of the nine weapons' systems in the surveillance
       program were behind schedule; and,


                                  a9   Printed u i l h \oy   1111 1 ~ recycled
                                                                      1          papcr
       Flight tests for six systems were behind schedule.

Furthermore, testing backlogs existed for all five primary weapons' components, such as
gas transfer valves and detonators.

Consistent with prior commitments, the Department had taken steps to improve its
surveillance test planning and to renew safety studies to eliminate the backlog.
However, these efforts were not fully successful. Departmental efforts were constrained
by:

       The need to address unanticipated safety-related concerns identified by weapons
       design laboratories;

       Contractor performance problems in preparing Documented Safety Analyses,
       essential safety-related documents; and,

       A one-time, Department-wide stand-down of classified operations associated
       with concerns over the security of classified removable electronic media.

To cite one example of an unanticipated safety ccncern; in FY 2004, a weapons design
laboratory provided new information about an unanticipated hazard that led to a
suspension of disassembly, inspection and reassembly of weapons. Additionally, in
FY 2005, poor quality contractor submittals of hazard analyses to support the
Documented Safety Analysis required considerable rework and multiple reviews and
approvals leading to further schedule slippages.

The surveillance program's role in assessing and ensuring confidence in the reliability of
the weapons stockpile is increasingly important as the nuclear weapons stockpile ages.
However, as a result of the continuing backlog of surveillance tests, the Department lacks
vital information about the reliability of the stockpile. Further, as a result of testing
delays, important operating anomalies or other defects could go undetected.

Recognizing the importance of the surveillance program. the Department has committed
by the end of FY 2007 to eliminate the majority of the existing testing backlog at the
Pantex Plant, where weapons are disassembled, inspected and reassembled. Further, the
Department has taken action to improve contractor performance by detailing its
expectations for the development of Documented Safety Analyses. It also plans to
increase Pantex Plant capabilities critical to the surveillance program. Finally, the
Department has indicated that it plans to analyze its business practices to streamline
safety authorization processes, while continuing to ensure safe operations.

From our perspective, elimination of the existing surveillance testing backlog depends in
large part on the successful implementation and execution of the Departmental
initiatives. Further, the ultimate success of the surveillance testing program is dependent
upon addressing and resolving the following issues:

       Risk management and the balance between mission demands and risk avoidance;
      The efficacy of the current structure of the surveillance testing program in
      addressin2 the uncertainties associated with the aging stockpile; and,

       Future infrastructure and human resources needed to meet the objectives of the
       surveillance testing program given the reality of an aging stockpile.

Management provided a number of technical comments which have been incorporated
into the body of the report.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Director, Policy and Internal Controls Management, NA-66
REPORT ON THE FOLLOW-UP AUDIT OF STOCKPILE
SURVEILLANCE TESTING


TABLE OF
CONTENTS

   Shortfalls in Surveillance Testing

   Details of Finding ...........................................................................................1


   Appendices

   1. Objective, Scope, and Methodology..........................................................7

   2. Related Audit Reports................................................................................8
Shortfalls in Surveillance Testing

Shortfalls in          Significant backlogs existed in each of the three types of tests
Surveillance Testing   conducted in the Surveillance Testing Program---laboratory tests,
                       flight tests, and component tests---as of September 30?2005.
                       Laboratory tests are conducted on weapons' non-nuclear systems
                       to detect defects due to handling, aging, manufacturing, or
                       design. Flight tests involve dropping or launching a weapon,
                       with its nuclear components removed, to assess performance and
                       reliability. Component tests involve the destructive analysis of
                       the five primary weapon components: pits, secondaries,
                       detonators, cable assemblies, and the gas transfer valves systems
                       to identify defects or failures. Although it made progress in
                       reducing the backlog for a number of systems, the surveillance
                       testing backlog actually increased for the majority of systems and
                       components during the five-year period from Fiscal Year (FY)
                       2000 to 2005.

                                                   Laboratory Tests

                       Laboratory tests for seven of the nine weapons systems in the
                       surveillance program were behind schedule as of September 30,
                       2005. Table 1 shows that the backlog of laboratory testing for 3
                       systems was at least 30 percent.

                                          Table 1- Backlog of Laboratory Testing
                                               (At Fiscal Year Ended 2005)

                                 Weapon    FY 2005     FY2005     FY 2005       FY 2005
                                 System    Planned     Achieved   Shortfall    Percentage
                                                                                Backlog
                             I   W62          36          13          23          64%




                       The Department met or exceeded the planned number of tests for
                       the W76 and the W87.

                       However, while the Department of Energy (Department) reduced
                       the FY 2000 testing backlog for four of the systems, the backlog
                       of laboratory tests for five systems (W62, W78, W80, W88, and
                       the B61-3!4/10 weapons) actually increased over the five-year
                       period. (See Appendix 3 for the backlogs of laboratory testing
                       during Fiscal Years 2005 and 2000).




Page 1                                                                        Details of Finding
                                    Flight Tests

         Similarly, flight tests for six of the nine weapons systems in the
         program were behind schedule as of September 30, 2005.
         Table 2 shows that the backlog of flight tests for 2 systems
         exceeded 30 percent.

                         Table 2 - Backlog of Flight Testing
                           (At Fiscal Year Ended 2005)




         The Department met or exceeded the planned number of tests for
         the W76, WS8, and the B83.

         However, while the Department reduced the FY 2000 testing
         backlog for three of the systems, the backlog of flight tests for
         five systems (W87, W80, B61-3/4/10, W-78, and the B61-7/11
         weapons) also increased over the five-year period. (See
         Appendix 3 for the backlogs of flight tests during Fiscal Years
         2005 and 2000).

         In responding to the report, officials advised that the National
         Nuclear Security Administration (NNSA) and the Department of
         Defense (DoD) determine plans to address flight test shortfalls.
         In some cases, based on the results of other successful flight
         tests, NNSA and DoD may choose to eliminate some
         requirements to make up the shortfall. These decisions are not
         reflected in the table above since our intent is to measure
         NNSAfs progress in completing planned tests, thereby,
         eliminating the testing backlog.




Page 2                                                   Details of Finding
                                            Component Tests

                  In addition, the Department did not conduct tests as scheduled
                  for all five components included in the weapons Surveillance
                  Testing Program. As shown in Table 3, the backlog of tests
                  increased for four of the components during FY 2000 through
                  FY 2005.

                              Table 3 - Backlog of Component Testing
                               (At Fiscal Years Ended 2005 and 2000)
                          Component Type

                                                 Cumulative
                                   -    -


                        Pits                           19     1        4
                        Secondaries                    12             0     1
                        Detonators                    175             0     1
                        Gas Transfer Valves           35              61

                        Gas Transfer                  27
                        Svstems

Backlog Factors   Although it took steps to improve planning and, in some cases,
and the Path      increased the number of tests, the Department had not fully
Forward           updated safety studies, a primary cause of the surveillance testing
                  backlog that existed in FY 2000. Additional safety-related
                  concerns and contractor performance problems had arisen during
                  the five-year period to FY 2005 and limited the Department's
                  progress in updating safety basis documentation and reducing the
                  testing backlog. A Departmental stand-down of all classified
                  activities related to the use of Classified Removable Electronic
                  Media also contributed to the delay of surveillance tests. The
                  Dcpartmen: has committed to eliminate the majority of the
                  backlog at the Pantex Plant by the end of FY 2007.

                                       Updates of Safety Studies

                  The Office of Inspector General reported in Stockpile
                  Suweillance Testing (16-0528, October 2001), that a lack of
                  planning for the expiration of required safety studies was a
                  primary cause for the testing backlog that existed in FY 2000.
                  Before surveillance tests can be conducted, weapons must first
                  be disassembled, inspected, reassembled, and in the case of flight
                  tests, have the nuclear package replaced with telemetry.
                  However, a valid safety study is required for each weapon


--
Page 3                                                             Details of Finding
         system, certifying that conducting the operation is safe to the
         worker, facility, and environment, before work can begin on the
         weapon. We found that a number of weapons could not be
         disassembled, inspected, and tested in FY 2000 because the
         related safety studies had been allowed to expire, and that the
         studies for other weapon systems would expire in FY 2002.

         In response to the October 2001 report, the Department
         committed to update safety basis documentation for active
         systems in the stockpile. However, as of the time of this review,
         the Department had completed updates for only three of the nine
         weapons systems in the stockpile, and partially completed work
         on one other system.

         The Department made limited progress in updating the safety
         basis documentation required to conduct surveillance tests, in
         part, because of unanticipated safety concerns that require
         technical study. These concerns were identified as part of the
         updating process. Additional security concerns and contractor
         performance problems also delayed completing the safety
         studies necessary to support authorizing work to disassemble,
         inspect, and reassemble the weapons.

         For example, a weapons design laboratory provided new
         information about an unanticipated hazard that led to a
         suspension of operations during FY 2004 at the Pantex Plant,
         which disassembles, inspects and reassembles weapons.
         Concerns about this hazard continued to delay completion of
         safety basis documentation for specific weapons systems into
         FY 2005. In several cases, the contractor made change control
         requests delaying the submittal of Hazard Analyses Reports, a
         safety-related document, for several weapons systems because of
         changes in weapons response information provided by the
         design laboratories.

         Additionally, NNSA cited the contractor for submitting poor
         quality Documented Safety Analyses, another safety-related
         document, during FY 2005, which led to schedule slippages in
         completing the authorizations needed to meet mission needs.
         According to the Pantex Site Office, the contractor submitted
         Hazard Analysis Reports in FY 2005 for several weapons
         systems that required considerable rework. The Site Office
         concluded that there appeared to be significant planning,
         performance and integration issues associated with developing
         Hazard Analyses Reports, and other safety-related documents
         and activities that increased mission accomplishment risks.


                                                                   - -    -


Page 4                                                 Details of Finding
         Specifically, in March 2006, the Manager, Pantex Site Office,
         communicated to the contractor's general manager that:

                Documented Safety Analyses had generally been
                deficient in areas such as hazard identification and
                accident analysis; and,

                No integrated comprehensive schedule existed to show
                what Documented Safety Analyses were required to
                support weapons program, facility, or new activity start-
                ups.

         The Manager also noted that the re-submittal of the Documented
         Safety Analyses documents to correct previously identified
         comments and conditions led to schedule slippages.

                                  Security Factors

         The FY 2004 stand-down of NNSA operations, because of
         concerns over the security of Classified Removable Electronic
         Media, also delayed surveillance tests. During this time,
         weapons could not be shipped or received at Departmental sites
         for surveillance work. Officials at one site stated that full
         surveillance operations did not resume for six to seven months.

                                   Path Forward

         In April 2006, the Department committed to eliminate the
         majority of the surveillance testing backlog at the Pantex Plant
         by the end of FY 2007. The Department has taken a number of
         steps and launched several initiatives crucial to successfully
         carrying out this commitment. For example, in March 2006, the
         Manager, Pantex Site Office established specific expectations to
         improve the adequacy of contractor Documented Safety
         Analyses documents, standardize the Site Office review times,
         and to improve the overall schedule performance for
         Documented Safety Analyses.

         Additionally, several planned Departmental initiatives to
         transform the weapons complex to make it fully responsive to
         national security needs are important to eliminating the backlog.
         Specifically, the Department recognized the need to manage risk
         more effectively to increase productivity, including surveillance
         testing productivity, while ensuring safe nuclear operations. As
         part of this effort, the Department plans to analyze the costs and
         benefits of its policies and procedures for ensuring safe and
         secure operations, and to streamline its safety authorization



Page 5                                                  Details of Finding
                     process. It also plans to increase weapons disassembly,
                     inspection and reassembly capability at the Pantex Plant critical
                     to the surveillance program.

Effects of Testing   The Stockpile Surveillance Program is vital to the nation's
Backlogs             security. The surveillance program's role in assessing and
                     ensuring confidence in the reliability of the current weapons
                     stockpile has increased in importance since existing weapons
                     remain in the stockpile longer than originally intended.
                     However, when tests are delayed or not completed, the
                     Department lacks vital information about the nuclear weapons
                     stockpile and anomalies or defects within the weapon systems
                     could be missed.

                     Elimination of the surveillance testing backlog depends on
                     successful implementation of ongoing Departmental initiatives
                     to improve contractor performance, streamline the safety
                     authorization process, and to increase weapons activities
                     capabilities at the Pantex Plant.

                     In addition to the above initiatives, we believe that the long-term
                     success of the surveillance testing program depends on how the
                     Department addresses:

                            Risk management and the balance between mission
                            demands and risk avoidance;

                            The efficacy of the surveillance test program, as
                            currently structured; and,

                             The future infrastructure and human resources needed to
                             meet the objectives of the surveillance test program in an
                             aging stockpile environment.


MANAGEMENT           Management provided a number of technical comments which
COMENTS              have been incorporated into the body of the report.




Page 6                                                               Details of Finding
Appendix 1

OBJECI'IVE    The audit objective was to determine whether the National
              Nuclear Security Administration (NNSA) has eliminated the
              weapons surveillance testing backlog.


SCOPE         The field work was performed between May 2005 and April
              2006 at the NNSA Headquarters in Washington, DC; Sandia
              National Laboratories in Albuquerque, NM; Los Alamos
              National Laboratory in Los Alamos, NM; and, the Pantex Plant
              in Amarillo. TX.


METHODOLOGY   To accomplish the audit objective, we:

                     Reviewed policies and procedures governing stockpile
                     surveillance testing;

                     Interviewed Departmental Headquarters officials
                     concerning the stockpile surveillance backlog;

                     Interviewed Department and contractor officials at Sandia
                     National Laboratories, Los Alamos National Laboratory,
                     and the Pantex Plant;

                     Verified testing data to assess whether backlogs existed
                     in flight, laboratory, and component testing;

                     Requested stockpile surveillance testing information from
                     the three sites that conduct surveillance testing;

                     Analyzed stockpile surveillance information received;
                     and,

                     Reviewed performance measures established in
                     accordance with Government Performance and Results
                     Act.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              We did not rely extensively on computer processed data.

              Management waived an exit conference.




Page 7                                  Objective, Scope, and 6 k h o d o l o g y
Appendix 2



                            RELATED AUDIT REPORTS


     Stockpile S~irveillanceTesting (DOEIIG-0528, October 2001). The audit found that at
     least since 1996, the Department of Energy (Department) had not met many of its
     internally-generated milestones for flight, laboratory, and component tests. Flight and
     laboratory tests scheduled for five different weapon systems were significantly
     backlogged. In addition, there were a large number of untested components. When
     tests are delayed or are not completed, the Department lacks critical information on the
     reliability of the specific weapons involved. Additionally, anomalies or defects within
     the weapon systems can go undetected since the likelihood of detecting anomalies
     decreases when fewer tests are conducted. Without needed test data, the Department's
     ability to assign valid reliability levels to some weapon systems is a risk.

     Management of the Stockpile Surveillance Program's Significant Finding Investigatiorzs
     (DOEIIG-0535, December 200 1). The audit found that the Department had not been
     meeting internally established time frames for initiating and conducting investigations
     of defects and malfunctions in nuclear weapons. In some instances, confirming the
     need for an investigation took over 300 worlung days, despite the Department's 45-day
     criteria. Once initiated, the majority of investigations examined were open more than
     one year even though a one-year benchmark had been established for such
     investigations. As a result of investigation delays, test data and findings relating to
     weapon reliability were not readily available to the Departments of Energy and
     Defense.




Page 8                                                               Related Audit Reports
                                 Backlog of Laboratory Testing
                          (At Fiscal Year 2005 and Fiscal Year 2000)




                                    Backlog of Flight Testing
                           (At Fiscal Year 2005 and Fiscal Year 2000)




I
    Exceeded planned tests by 28 percent.
'Exceeded planned tests by 17 percent.
' Exceeded planned tests by 13 percent.
4
    Exceeded planned tests by 8 percent.
' Exceeded planned tests by 17 percent.
Page 9                                                               Fiscal Years 2000
                                                                    and 2005 Backlogs
                                                                     IG Report No. DOEJIG-0744


                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                       Date

Telephone                                  Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG- 1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (302) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://wwcv.ig.ener.gy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
